                                     ADVISORY




RECOVERY OVERSIGHT ADVISORY
Tribal Expansion of Bob Hope Drive




Report No.: RO-J-BIA-064-2010          May 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                    MAY 2 0 2011
Memorandum

To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:          Robert A. Knox     ~~
               Assistant Inspect"~f~lRecovery Oversight

Subject:       Recovery Oversight Advisory - Tribal Expansion of Bob Hope Drive
               Report No. RO-J-BIA-064-2010

       This advisory regarding the Bureau of Indian Affairs ' (BIA) Indian Reservation Roads
program (IRR) is part of our ongoing effort to oversee and ensure the accountability of funding
appropriated to the U.S. Department of the Interior (DOl) in the American Recovery and
Reinvestment Act of2009 (Recovery Act).

        In March 2010, the DOl Office of Inspector General received information regarding the
proposal of the Agua Caliente Band of Cahilla Indians, Palm Springs, CA, to expand Bob Hope
Drive using IRR program funds. The IRR funds were an additional allocation made available to
the tribe by the Recovery Act. Under an agreement with the tribe, the City of Rancho Mirage
agreed to expand this road. A Federal Register notice described the program and stated,

        The IRR Program is a part of the Federal Lands Highway Program established to
        address transportation needs of tribes. The program is jointly administered by the
        Bureau ofIndian Affairs (BIA) and Federal Highway Administration' s (FHWA)
        Federal Lands Highway (FLH) Office. It expands transportation activities
        available to tribes and tribal organizations and provides guidance for planning,
        designing, constructing, and maintaining transportation facilities.

        Tribes can receive IRR funding for repair and maintenance of roads in their tribal
inventory through a formula that includes variables such as tribal population, frequency of use,
total cost to construct, and relative need. Approximately 62,217 miles were attributable to the
IRR program roads inventory in fiscal year 2004, and approximately 129,350 miles were
attributable to the program in fiscal year 2009. The standard that BIA uses to determine if a road
can be added to a tribal inventory is "any public facility that the tribe and/or tribal members use
on a daily basis."

        Section 1604 ofthe Recovery Act states, however, that "none of the funds appropriated
or otherwise made available in this Act may be used by any State or local government, or any
private entity, for any casino or other gambling establishment.. ." We determined that the
expansion project was designed to add a single northbound lane to Bob Hope Drive, which ends



                                Recovery Oversight Office I Washington, DC
at Casino Drive directly in front of the Agua Caliente Casino. In addition, in a previously filed
Memorandum of Understanding between the tribe and the City of Rancho Mirage, the Bob Hope
Drive expansion project appeared to be part of Agua Caliente' s larger casino enhancement
project.

         Contracting personnel within BIA were resistant to advancing the $1.8 million allocated
to the tribe using Recovery Act funds because of an apparent agreement in place between the city
of Rancho Mirage and the tribe to use part of the $1.8 million to repay a loan, a concern that
some of the work may have begun prior to the money being obligated, and a disparity between
the city' s estimated cost for the project and the tribe ' s claimed cost.

        BIA contracting personnel eventually advanced approximately $800,000 to the tribe,
despite the tribe' s failure to produce requested documentation pertaining to the project.
Contracting personnel did not issue a Notice to Proceed. BIA Central Office personnel reportedly
made the decision to release these funds.

        During our review, the Department and BIA chose to retract the Recovery Act funds for
this project, which is now funded by another source. As a result, the tribe paid back the $800,000
of Recovery Act funding it had received.

      We do not require a response. We will post this advisory on our Web site
(www.doioig.gov/recovery/) and Recovery.gov. Information contained in this advisory may also
be included in our semiannual reports to Congress. We performed our work in accordance with
the applicable Quality Standards adopted by the Council ofthe Inspectors General on Integrity
and Efficiency. Please contact me if you have any questions.

cc:    Deputy Secretary, U.S. Department of the Interior
       Director, Office of the Executive Secretariat and Regulatory Affairs
       Assistant Secretary, Policy, Management and Budget
       Assistant Secretary, Indian Affairs
       Director, Office of Acquisition and Property Management
       Acting Director, Office of Financial Management
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Audit Liaison, Indian Affairs
       Recovery Coordinator, Assistant Secretary - Indian Affairs




                                                                                                 2
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
